OFFICE OF INSPECTOR GENERAL 

               Audit Report


Examination of Management’s Assertion of Compliance 

with the Economic Recovery Payment Provisions of the 

   American Recovery and Reinvestment Act of 2009




                 Report No. 10-04 

                  March 18, 2010 





  RAILROAD RETIREMENT BOARD


                             UNITED STATES RAILROAD RETIREMENT BOARD


                                               OFFICE OF INSPECTOR GENERAL





To the Board Members:

The
The following
     following report
                 report presents
                         presents the results of of the Office
                                                        Office of
                                                                of Inspector
                                                                   Inspector General's
                                                                               General's (DIG)
                                                                                            (DIG)
examination of
examination     of the
                   the Railroad
                        Railroad Retirement
                                 Retirement Board's      (RRB) assertion
                                               Board's (RRB)     assertion that
                                                                             that itit has
                                                                                       has
complied
complied with     sections 2201 (a)(1
            with sections        (a)(1 )-(5) of the American
                                                     American Recovery
                                                                 Recovery and
                                                                            and Reinvestment
                                                                                  Reinvestment
Act
Act of
    of 2009
       2009 (Recovery
               (Recovery Act), which provide for a one-time
                                                        one-time $250
                                                                    $250 economic
                                                                          economic recovery
                                                                                         recovery
payment
payment to to qualifying
              qualifying beneficiaries
                          beneficiaries of the railroad retirement
                                                           retirement program.
                                                                       program.

AUDITOR'S OPINION

We
We have
      have examined
            examined thethe RRB's
                             RRB's assertion
                                    assertion of compliance  with sections
                                                 compliance with   sections 2201
                                                                            2201 (a)(1)-(5)
                                                                                  (a)(1)-(5)
of
of the
    the Recovery
        Recovery Act
                   Act through
                        through May 29, 2009. In ourour opinion,
                                                        opinion, management's
                                                                  management's
assertion
assertion that
            that the
                 the RRB
                     RRB complied
                            complied with the aforementioned     requirements, is
                                               aforementioned requirements,    is fairly
                                                                                   fairly
stated, in
stated,  in all
            all material
                material respects.
                          respects.

CONSIDERATION OF INTERNAL CONTROL

In
 In planning
    planning and  and performing
                       performing our examination,         considered the
                                        examination, we considered       the RRB's
                                                                             RRB's internal
                                                                                     internal
control over compliance
 control   over    compliance   with  sections
                                      sections 2201 (a)(1 )-(5) of the Recovery Act. We
                                                                of the  Recovery  Act.   We did
                                                                                              did
this
 this to
       to determine
          determine our  our procedures
                             procedures for examining         RRB's assertion
                                              examining the RRB's                of compliance
                                                                       assertion of  compliance
and
 and notnot to
             to express
                express an an opinion                        Accordingly, we
                              opinion on internal control. Accordingly,     we do
                                                                               do not
                                                                                    not express
                                                                                        express
an
 an opinion
     opinion on  on internal
                     internal control
                              control over compliance         the aforementioned
                                            compliance with the    aforementioned
 requirements.
requirements.

 Evaluation of
Evaluation     of internal
                   internal control
                            control was not an objective
                                                objective of
                                                          of our
                                                             our examination
                                                                  examination and
                                                                                and our
                                                                                      our
 internal control
internal   control work
                     work would
                           would not necessarily
                                      necessarily disclose
                                                  disclose all deficiencies
                                                               deficiencies in internal
                                                                                internal
                                                                                     11
 control that
control   that might
                might bebe material
                            material weaknesses
                                     weaknesses or other
                                                     other significant
                                                           significant deficiencies.
                                                                       deficiencies.




11   AA deficiency
         deficiency in in internal
                           internal control
                                      control exists
                                               exists when the design  design or operation
                                                                                    operation of of a control
                                                                                                      control does
                                                                                                                does not
                                                                                                                      not allow
                                                                                                                           allow
  management or
management            or employees,
                         employees, in    in the
                                             the normal
                                                    normal course
                                                              course of performing
                                                                            performing their
                                                                                          their assigned
                                                                                                 assigned functions,
                                                                                                             functions, toto prevent,
                                                                                                                              prevent,
  detect, or
detect,     or correct
                correct errors
                           errors inin assertions
                                       assertions made made by management
                                                                    management on a timely  timely basis.
                                                                                                     basis. A A material
                                                                                                                 material weakness
                                                                                                                           weakness
isis aa significant
        significant deficiency,
                       deficiency, or  or combination
                                          combination of significant
                                                                significant deficiencies,
                                                                               deficiencies, that
                                                                                               that results
                                                                                                     results in
                                                                                                              in more
                                                                                                                 more than
                                                                                                                        than aa
  remote     likelihood     that a  material
remote likelihood that a material misstatement misstatement         of  the  subject  matter
                                                                             subject matter    will not
                                                                                                    not be prevented or
                                                                                                        be  prevented     or
detected. A significant deficiency is a deficiency in internal control, or combination of
  detected.      A  significant    deficiency     is a deficiency      in internal  control,  or  combination     of deficiencies,
                                                                                                                     deficiencies,
 that adversely
that     adversely affects
                       affects the
                                 the entity's
                                      entity's ability
                                                ability to
                                                         to initiate,
                                                             initiate, authorize,
                                                                        authorize, record,
                                                                                     record, process,
                                                                                               process, oror report
                                                                                                               report data
                                                                                                                      data reliably
                                                                                                                             reliably in
                                                                                                                                       in
 accordance with
accordance         with the
                          the applicable
                               applicable criteria
                                              criteria or
                                                        or framework
                                                           framework such   such that
                                                                                   that there
                                                                                        there isis more
                                                                                                   more than
                                                                                                         than aa remote
                                                                                                                   remote likelihood
                                                                                                                             likelihood
 that aa misstatement
that       misstatement of     of the
                                  the subject
                                        subject matter
                                                   matter that
                                                            that isis more
                                                                      more than
                                                                              than inconsequential
                                                                                    inconsequential willwill not
                                                                                                              not be
                                                                                                                  be prevented
                                                                                                                      prevented or  or
 detected.
detected.


844 N RUSH STREET CHICAGO IL 60611-2092                                                                         Printed on recycled paper
We
 We identified
      identified no
                  no material
                     material weaknesses.
                              weaknesses. However,     during our
                                             However, during   our examination
                                                                    examination we
                                                                                we
observed
 observed that
             that controls
                  controls over
                           over economic
                                economic recovery    payments were
                                          recovery payments     were weakened
                                                                       weakened by
                                                                                 by aa
lack of  documentation,
 lack of documentation,    which we  classify
                                     classify as a significant deficiency.
                                                   significant deficiency.

Internal
 Internal control
           control and
                   and all
                        all transactions
                            transactions and other   significant events
                                              other significant   events need
                                                                          need toto be
                                                                                    be clearly
                                                                                       clearly
documented,
 documented, and and the
                      the documentation
                           documentation should
                                            should be readily
                                                       readily available
                                                                 available for
                                                                           for examination.
                                                                               examination.
The   documentation     should   appear  in management      directives, administrative
 The documentation should appear in management directives, administrative
 policies, or
policies,   or operating
               operating manuals
                          manuals and may be in paper
                                                    paper oror electronic
                                                                electronic form.
                                                                            form. All
                                                                                   All
documentation      and  records
 documentation and records        should  be properly  managed     and  maintained?
                                             properly managed and maintained?

During
During our
        our examination,
             examination, we noted that agency           management had
                                                agency management      had not
                                                                           not fully
                                                                               fully
documented
documented all all of
                   of its
                       its control
                           control activities
                                   activities over payments     made pursuant
                                                     payments made    pursuant to
                                                                                to sections
                                                                                    sections
2201 (a)(1 )-(5) of the   Recovery
2201 (a)(1 )-(5) of the Recovery     Act.    As  a result, agency management     does
                                                           agency management does not   not
have
have adequate
      adequate assurance
                   assurance that controls
                                     controls were
                                                 were properly  designed, placed
                                                       properly designed, placed inin
operation,  and  effective
operation, and effective     as  placed   in operation.
                                              operation.

Recommendation

We
We recommend
    recommend that
                that the
                      the Office
                          Office of Programs
                                    Programs remind responsible
                                                     responsible supervisors
                                                                  supervisors and and
managers
managers to
          to ensure
             ensure that
                     that the design, operation
                                      operation and results of control
                                                    results of control activities
                                                                       activities are
                                                                                   are
adequately
adequately documented.
           documented.

OBJECTIVES, SCOPE, AND METHODOLOGY

The
 The Recovery
       Recovery Act      Act appropriated
                               appropriated fundsfunds for job
                                                             job preservation
                                                                  preservation andand creation,
                                                                                       creation,
 infrastructure investment,
infrastructure          investment, energy
                                         energy efficiency
                                                   efficiency and science,
                                                                     science, assistance
                                                                                assistance to to the
                                                                                                 the
 unemployed, and
unemployed,            and state
                              state and
                                      and local fiscal stabilization.
                                                          stabilization. Within
                                                                          Within thethe Recovery
                                                                                         Recovery Act,
                                                                                                     Act,
 Title IIII --

 Assistance
Title              Assistance for  for Unemployed
                                       Unemployed WorkersWorkers and Struggling
                                                                         Struggling Families,
                                                                                       Families, provided
                                                                                                   provided
 for economic
for   economic recoveryrecovery payments
                                     payments to recipients
                                                      recipients ofof social
                                                                      social security,
                                                                              security, supplemental
                                                                                          supplemental
 security income,
security         income, railroad
                             railroad retirement
                                        retirement benefits,
                                                      benefits, and veterans
                                                                       veterans disability
                                                                                   disability compensation
                                                                                              compensation
 or pension
or   pension benefits.
                    benefits. Sections
                                  Sections 2201 (a)(1)-(5)
                                                     (a)(1)-(5) provided
                                                                 provided forfor payment
                                                                                 payment of  of $250
                                                                                                $250 to
                                                                                                      to
 certain railroad
certain        railroad retirement
                           retirement beneficiaries
                                         beneficiaries who met certaincertain eligibility
                                                                               eligibility requirements.
                                                                                           requirements.
 The full
The    full texttext of
                     of the
                         the provisions
                               provisions of the law, upon which   which management
                                                                          management asserted
                                                                                            asserted its
                                                                                                       its
 compliance, is
compliance,           is presented
                          presented as Attachment
                                             Attachment 1 to this report.

 RRB management
RRB      management is     is responsible
                              responsible for complying
                                              complying with
                                                         with the
                                                              the requirements
                                                                   requirements of
                                                                                 of the
                                                                                    the
 Recovery Act
Recovery         Act as
                      as applicable
                         applicable to the RRB. Our
                                                  Our responsibility
                                                      responsibility is to
                                                                        to express
                                                                           express an
                                                                                    an
 opinion on
opinion        on the
                  the RRB's
                       RRB's assertion
                               assertion of compliance
                                            compliance based
                                                       based on ourour examination.
                                                                       examination. InIn order
                                                                                         order
 to fulfill
to   fulfill this
              this responsibility,
                   responsibility, we:

    ••   examined, on
         examined,    on aa test basis, evidence
                                        evidence supporting
                                                 supporting economic
                                                             economic recovery
                                                                        recovery
         payments    made
         payments made by    by the RRB   pursuant the requirements in sections
                                          pursuant to the requirements     sections
         2201 (a)(1
         2201 (a)(1)-(5)
                    )-(5) of
                          of the Recovery
                                  Recovery Act, through
                                                through May
                                                          May 29,
                                                              29, 2009;
                                                                  2009; and
                                                                         and

   Standards
           for Internal
22 Standards
          for   Internal Control
                         Control in
                                  in the
                                     the Federal
                                         Federal Government,
                                                 Government, U.S.
                                                             U.S. Government
                                                                  Government Accountability
                                                                             Accountability Office,
                                                                                            Office,
November 1999,
November 1999, GAO/AIMD-OO-21.3.1
                                                     2
   •		 obtained an understanding of the RRB’s operations as they pertain to
       compliance with sections 2201(a)(1)-(5) of the Recovery Act, including
       applicable internal controls.

We limited our assessment of internal control to selected controls over
compliance with sections 2201(a)(1)-(5) of the Recovery Act. Because of
inherent limitations in internal control, error, fraud or other losses may
nevertheless occur and not be detected by our examination. We also caution
that projecting our evaluation to future periods is subject to the risk that controls
may become inadequate because of changes in conditions or that the degree of
compliance with controls may deteriorate. We also caution that our internal
control testing may not be sufficient for other purposes.

Our examination was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and
U.S. generally accepted government auditing standards. Those standards
require examining, on a test basis, evidence supporting the RRB’s assertion of
compliance with sections 2201(a)(1)-(5) of the Recovery Act, and performing
such other procedures as we considered necessary in the circumstances. We
believe that our examination provides a reasonable basis for our opinion. Our
examination does not provide a legal determination on the RRB’s compliance
with specified requirements.

RRB MANAGEMENT’S COMMENTS

RRB management expressed appreciation for both the OIG’s examination and our
concurrence with management’s assertion that the RRB complied with the $250
economic recovery payment provisions of the Recovery Act. With respect to the
significant deficiency described in this report and the related recommendation,
management agreed with the recommendation and stated that they have taken
corrective action.

The full text of management’s response follows as Attachment 2 to this report. We
did not perform examination procedures on the RRB’s written response to the
significant deficiency and, accordingly, we express no opinion on the response.



Original Signed by…


Martin J. Dickman
Inspector General
February 9, 2010


                                            3

                                                                             Attachment 1

                American
                American Recovery
                           Recovery and
                                    and Reinvestment  Act of
                                         Reinvestment Act of 2009
                                                             2009

                 Provisions  Subject to Management's  Assertion

                 Provisions Subject to Management's Assertion

SEC.
 SEC. 2201. ECONOMIC ECONOMIC RECOVERYRECOVERY PAYMENT PAYMENT TO RECIPIENTS          OF SOCIAL
                                                                           RECIPIENTS OF SOCIAL
SECURITY,
SECURITY, SUPPLEMENTALSUPPLEMENTAL SECURITY    SECURITY INCOME,
                                                             INCOME, RAILROAD
                                                                           RAILROAD
RETIREMENT               BENEFITS,       AND
 RETIREMENT BENEFITS, AND VETERANS DISABILITY    VETERANS       DISABILITY
COMPENSATION OR PENSION
COMPENSATION                        PENSION BENEFITS.
                                                  BENEFITS.
(a)   AUTHORITY
 (a) AUTHORITY             TO   MAKE      PAYMENTS.­
                                MAKE PAYMENTS.-
(1)
 (1) ELiGIBILlTY.­
       ELiGIBILlTY.-
(A)
 (A) IN IN GENERAL.-Subject
             GENERAL.-Subject             to paragraph
                                              paragraph (5)(B), the the Secretary
                                                                          Secretary
of
of the Treasury
            Treasury shall disburse
                                 disburse a $250$250 payment
                                                      payment to
each       individual who, for any month
each individual                            month during
                                                   during the 3-month
                                                                3-month
period
 period ending
             ending with the month  month which
                                             which ends
                                                    ends prior
                                                           prior to the
                                                                     the
month
month that includes includes the datedate of the enactment
                                                   enactment of this this
Act, is  is entitled
             entitled to a benefit
                             benefit payment       described in clause
                                        payment described           clause
(i),   (ii), or (iii) of subparagraph
 (i), (ii),              subparagraph (B) or is eligible
                                                       eligible for
                                                                 for a
SSI
SSI cash benefit           described in subparagraph
                benefit described            subparagraph (C).
(B)     BENEFIT PAYMENT
 (B) BENEFIT            PAYMENT DESCRIBED.-For
                                       DESCRIBED.-For          purposes
                                                               purposes of  of
subparagraph
subparagraph (A):
(i)
 (i) TITLE
     TITLE IIII BENEFIT.-A
                    BENEFIT.-A         benefit
                                       benefit payment
                                                 payment described
                                                            described
in
 in this clause
             clause is a monthly
                            monthly insurance
                                        insurance benefit
                                                     benefit payable
                                                              payable
(without
 (without regard to sectionssections 2020)(               223(b) of
                                         2020)( 1) and 223(b)      of the
Social       Security Act
Social Security          Act (42 U.S.C.
                                    U.S.C. 4020)(1),
                                              4020)(1), 423(b))
                                                         423(b)) under­
                                                                   under-
(I)
 (I) section
      section 202(a)
                  202(a) of such Act (42 U.S.C.  U.S.C.
402(a));
402(a));
(II)
 (II) section      202(b) of such Act (42 U.S.C.
       section 202(b)
402(b));
402(b));
(III)
 (III) section       202(c) of such Act
        section 202(c)                  Act (42 U.S.C.
402(c));
402(c));
 (IV) section
(IV)     section 202(d)(1
                     202(d)(1 )(B)(ii)
                                )(B)(ii) of such Act
                                                   Act (42
 U.S.C. 402(d)(1
U.S.C.        402(d)(1 )(B)(ii));
                         )(B)(ii));
(V) section
(V)    section 202(e)
                    202(e) of such Act (42 U.S.C.
402(e));
402(e));
 (VI) section
(VI)     section 202(f)
                     202(f) of such Act Act (42 U.S.C.
402(f));
402(f));
 (VII) section
(VII)     section 202(g)
                      202(g) of such Act (42 U.S.C.
402(g));
402(g));
 (VIII) section
(VIII)     section 202(h)
                       202(h) of such Act  Act (42 U.S.C.
402(h));
402(h));
 (IX) section
(IX)     section 223(a)
                     223(a) of such Act  Act (42 U.S.C.
423(a));
423(a));
 (X) section
(X)    section 227 of such Act      Act (42 U.S.C.
                                               U.S.C. 427);
or
 (XI) section
(XI)     section 228 of such Act (42 U.S.C. 428).
 (ii) RAILROAD
(ii)  RAILROAD RETIREMENTRETIREMENT BENEFIT.-ABENEFIT.-A benefit
                                                               benefit
 payment described
payment         described in this clauseclause is a monthly
                                                      monthly annuity
                                                                annuity
or pension
or    pension payment
                   payment payable
                               payable (without
                                            (without regard to section
                                                                  section

                                               4
                                                                                        Attachment 1

                   American
                   American Recovery
                              Recovery and
                                       and Reinvestment  Act of
                                            Reinvestment Act of 2009
                                                                2009
                    Provisions
                    Provisions Subject
                                Subject to Management's  Assertion
                                           Management's Assertion

5(a)(ii)
 5(a)(ii) of the Railroad
                       Railroad Retirement
                                     Retirement ActAct of 1974
                                                            1974 (45
U.S.C.
 U.S.C. 231d(a)(ii»))
            231d(a)(ii))) under­ under-
(I)
 (I) section
      section 2(a)(1)
                 2(a)(1) of such Act (45 U.S.C.
231a(a)(1»;
 231a(a)(1));
(II)
 (II) section
       section 2(c) of such Act       Act (45 U.S.C. 231a(c»;
                                                         231a(c));
(III)   section 2(d)(1 )(i) of such Act (45 U.S.C.
 (III) section                                        U.S.C.
231
 231 a(d)(1
       a(d)(1 )(i»;
                )(i));
(IV)    section 2(d)(1 )(ii) of such Act (45 U.S.C.
 (IV) section
231
 231 a(d)(1)(ii»;
       a(d)( 1)(ii));
(V)
 (V) section
       section 2(d)(1 )(iii)(C)
                             )(iii)(C) of such Act to an
adult    disabled
 adult disabled         child    (45 U.S.C. 231 a(d)(1 )(iii)(C));
                                                            )(iii)(C));
(VI)
 (VI) section       2(d)(1)(iv) of such Act (45 U.S.C.
        section 2(d)(1)(iv)
231
 231 a(d)(1
       a(d)(1 )(iv));
                )(iv));
(VII)    section 2(d)(1 )(v) of such Act (45 U.S.C.
 (VII) section
231a(d)(1)(v»;
 231a(d)(1)(v)); or
(VIII)
 (VIII) section
          section 7(b)(2)
                      7(b)(2) of such Act (45 U.S.C.  U.S.C.
231
 231f(b)(2))
       f(b )(2)) with respect
                          respect to any of the benefit
                                                      benefit payments
                                                                  payments
described
 described in    in clause
                     clause (i) of this subparagraph.
                                             subparagraph.
 (iii) VETERANS
(iii)  VETERANS BENEFIT.-A BENEFIT.-A          benefit payment
                                               benefit   payment
described in
described        in this clause
                            clause is a compensation
                                           compensation or pension pension
payment        payable under­
 payment payable              under-
(I)
 (I) section
      section 1110,
                  1110, 1117,
                            1117, 1121, 1131, 1141, or
 1151 of
1151      of title 38, United
                           United States
                                      States Code;
       section 1310,
(II) section       1310, 1312,
                             1312, 1313, 1315, 1316, or
 1318 of
1318      of title 38, United
                           United States
                                      States Code;
 (III) section
(III)   section 1513,1521,1533,1536,1537,
                    1513, 1521, 1533, 1536, 1537,
 1541, 1542,
1541,      1542, or 1562 1562 of title 38, United
                                                United States
                                                         States Code;
                                                                   Code;
 or
or
 (IV) section
(IV)    section 1805,1815,
                    1805,1815, or 1821 of title 38,
United States Code,
 United     States
to aa veteran,
to      veteran, surviving
                     surviving spouse,
                                     spouse, child, or parent
                                                           parent as
described in
described        in paragraph
                     paragraph (2), (3), (4)(A)(ii),
                                                (4)(A)(ii), or (5) ofof section
                                                                          section
 101, title 38, United
101,                 United StatesStates Code, who received
                                                         received
that benefit
that    benefit during
                   during any month  month within
                                              within the 3 month
                                                              month
 period ending
period      ending with the month    month which
                                             which ends
                                                     ends prior
                                                             prior to
the month
the    month that includes
                         includes the date date of the enactment
                                                          enactment
of this
of   this Act.
(C) SSI
(C)    SSI CASH
             CASH BENEFITBENEFIT DESCRIBED.-A
                                        DESCRIBED.-A            SSI cash
                                                                     cash benefit
                                                                             benefit
described in
described        in this subparagraph
                           subparagraph is a cash benefit   benefit payable
                                                                        payable
 under section
under      section 1611 1611 (other
                                 (other than under
                                                under subsection
                                                       subsection (e)(1)(B)
                                                                         (e)(1)(B)
of    such   section)
of such section)           or   1619(a)
                               1619(a)    of  the  Social Security Act (42
                                                   Social   Security     Act
 U.S.C. 1382,
U.S.C.      1382, 1382h).
                       1382h).
(2)    REQUIREMENT.-A
(2) REQUIREMENT.-A payment              payment shall be made  made underunder paragraph
                                                                                paragraph
(1) only
(1)    only to individuals
                 individuals who reside in 1 of the 50 States,       States,

                                                      5
                                                                                                   Attachment 1

                     American
                     American Recovery
                               Recovery and
                                         and Reinvestment  Act of
                                              Reinvestment Act of 2009
                                                                  2009
                      Provisions Subject
                      Provisions Subject  to Management's  Assertion
                                             Management's Assertion

the
 the District
           District of  of Columbia,
                            Columbia, Puerto Puerto Rico, Guam,   Guam, the  the United
                                                                                   United States
                                                                                             States
Virgin
 Virgin Islands,
               Islands, American
                             American Samoa,  Samoa, or the Northern                Mariana
                                                                     Northern Mariana
Islands.
  Islands. For    For purposes
                          purposes of     of the preceding
                                                   preceding sentence,
                                                                    sentence, the   the determination
                                                                                         determination
of
 of the the individual's
               individual's residence
                                  residence shall be based       based on the   the current
                                                                                     current
address
 address of        of record
                        record under
                                   under a program
                                                program specified                paragraph (1).
                                                              specified in paragraph
(3)
  (3) NO         DOUBLE PAYMENTS.-An
          NO DOUBLE              PAYMENTS.-An                  individual     shall be paid
                                                               individual shall            paid
only
 only 11 paymentpayment under  under this section,
                                                section, regardless
                                                             regardless of     of whether
                                                                                   whether the the
individual
  individual is       is entitled
                          entitled to,
                                     to, or eligible
                                               eligible for, more         than 1 benefit
                                                                  more than          benefit
or
 or cash cash payment
                  payment described
                                 described in paragraph
                                                     paragraph (1).
(4)
  (4) L1MITATION.-A
          L1MITATION.-A payment        payment under under this section            shall not
                                                                       section shall       not
be
 be made-made­
(A)
 (A) in   in the
              the case
                     case of  of an
                                  an individual
                                      individual entitled
                                                      entitled to a benefit
                                                                          benefit
specified           in   paragraph
 specified in paragraph (1)(B)(i)         (1)(B)(i)   or   paragraph        (1)(B)(ii)(VIII)
                                                           paragraph (1)(B)(ii)(VIII)
if,if, for
        for the
             the most
                    most recent
                             recent month
                                        month of such individual's                entitlement
                                                                 individual's entitlement
in     the    3-month        period
 in the 3-month period described        described       in  paragraph
                                                            paragraph         (1),
such
 such individual's
             individual's benefit
                                benefit underunder such paragraph
                                                                paragraph was    was not
                                                                                       not
payable
 payable by              reason of
                  by reason         of subsection
                                        subsection (x) or (y) of section    section 202 202
the
 the Social
          Social Security
                       Security Act (42    (42 U.S.C. 402) or section   section 1129A1129A
of
 of suchsuch Act Act (42 (42 U.S.C.
                               U.S.C. 1320a-8a);
                                           1320a-8a);
 (B) in
(B)       in the
              the case
                     case of of anan individual
                                      individual entitled
                                                      entitled to a benefit
                                                                          benefit
 specified in
specified            in paragraph
                          paragraph (1       )(B)(iii) if, for the most
                                          (1)(B)(iii)                            recent
                                                                        most recent
month
 month of       of such
                    such individual's
                             individual's entitlement
                                                entitlement in the             month
                                                                      the 3 month
period
 period described
                described in     in paragraph
                                     paragraph (1), such individual's                  benefit
                                                                     individual's benefit
under
 under such    such paragraph
                         paragraph was not payable,   payable, or was    was reduced,
                                                                                 reduced,
by
 by reason
         reason of     of section
                           section 1505,
                                      1505, 5313, or 5313B     5313B of title title 38,
 United States
United          States Code;Code;
 (C) in
(C)       in the
              the casecase of of an
                                  an individual
                                       individual entitled
                                                      entitled to a benefit
                                                                          benefit
 specified in
specified            in paragraph
                          paragraph (1    (1)(C)
                                             )(C) if, for such most   most recent
                                                                              recent month,
                                                                                        month,
 such individual's
such         individual's benefit
                                benefit underunder such paragraph
                                                                paragraph was    was not
                                                                                       not
 payable by
payable           by reason
                        reason of   of subsection
                                        subsection (e)(1 )(A) or (e)(4)     (e)(4) of of section
                                                                                         section
  1611 (42
1611          (42 U.S.C.
                     U.S.C. 1382)
                                1382) or section
                                               section 1129A
                                                           1129A of such  such Act Act (42
 U.S.C. 1320a-8a);
U.S.C.           1320a-8a); or     or
 (D) in
(D)       in the
              the case
                     case of  of any
                                  any individual
                                         individual whose
                                                       whose date   date ofof death
                                                                                death
 occurs         before      the
occurs before the date on which   date     on  which     the    individual certified
                                                                individual     is  certified
 under subsection
under          subsection (b)     (b) to receive
                                            receive a payment
                                                          payment under  under thisthis section.
                                                                                         section.
 (5)      TIMING
(5) TIMING AND MANNER    AND     MANNER          OF    PAYMENTS.-
                                                      PAYMENTS.­
 (A) IN
(A)       IN GENERAL.-The
               GENERAL.-The                  Secretary of the Treasury
                                             Secretary                 Treasury shall shall
 commence                disbursing
commence disbursing payments under        payments        under     this  section
                                                                          section at the  the
 earliest practicable
earliest         practicable date   date but but in no event
                                                           event later
                                                                     later than
                                                                            than 120 120
 days after
days        after the  the date
                            date of of enactment
                                        enactment of      of this
                                                              this Act.
                                                                     Act. The
                                                                           The Secretary
                                                                                   Secretary
 of the
of      the Treasury
               Treasury may    may disburse
                                      disburse any payment payment electronically
                                                                          electronically
 to an
to      an individual
             individual in    in such
                                  such manner
                                           manner as   as ifif such
                                                                such payment
                                                                        payment was   was
 a     benefit      payment        or  cash     benefit
a benefit payment or cash benefit to such individual       to   such    individual under
                                                                                       under
the applicable program described in subparagraph (B) or
 the      applicable        program        described       in   subparagraph          (B)  or

                                                            6
                                                                  Attachment 1

               American
               American Recovery
                         Recovery and Reinvestment
                                       Reinvestment Act of 2009
                                                    Act of 2009
                Provisions
                Provisions Subject
                           Subject to Management's  Assertion
                                      Management's Assertion

(C)
 (C) of paragraph
        paragraph (1).
(8) DEADLlNE.-No
     DEADLlNE.-No       payments
                         payments shall be disbursed
                                             disbursed under
                                                          under
this section
     section after
             after December                regardless of
                   December 31, 2010, regardless            any
                                                         of any
determinations of entitlement
determinations      entitlement to, or eligibility
                                       eligibility for, such
                                                        such
payments
 payments made
            made after
                   after such date.




                                            7

                                                                                       Attachment 2

                                                                                                     FORM G-115f0-92)
                       UNITED    Sr ATES   GOVERNMENT                                              FORM G-115f0-92)
                                                                                   RAILROAD   RETIREMENT
                                                                                                       BOARD
                                                                                  RAILROAD RETIREMENT BOARD
                        MEMORANDUM
                        MEMORANDUM
                                                                                      March 16,2010


                   DianaKruel
                  Diana   Kruel
                   Acting AssistantInspector
                  Acting Assistant   InspectorGeneral
                                               Generalfor
                                                        forAudit
                                                            Audit


FROM:              CatherineA.A.Leyser
                  Catherine
                   Director of
                                 Leyser
                               Assessment
                                            ee
                                          and
                                                ~
                                             ,/rufp, ~
                                           ,/rufp,
                                              Triining
                  Director of Assessment and Triining

THROUGH:           DorothyISherwo~ftJ!
                  Dorothy   ISherwo~ftJ!  .•.•~"c­
                                              ~"c-
                  Director of progr:r¥'~1.tN'-
                   Director of progr:r¥'~          1.tN'-       -       /    r-
                                                            -       /       r-




SUBJECT:
                   DraftReport
                  Draft  Report - - Examination
                                     Examination ofofManagement's
                                                      Management's Assertion
                                                                     Assertion ofof
                   Compliance with
                  Compliance     with the
                                       theEconomic
                                           Economic Recovery
                                                       Recovery Payment
                                                                 Payment Provisions
                                                                           Provisions ofofthe
                                                                                           the
                   American  Recovery     and  Reinvestment  Act
                  American Recovery and Reinvestment Act of 2009  of 2009


 EXAMINATIONOF
EXAMINATION  OFMANAGEMENT'S
                MANAGEMENT'S ASSERTION
                                ASSERTIONOF
                                          OFCOMPLIANCE
                                             COMPLIANCE WITH
                                                         WITHTHE
                                                              THE
 ECONOMIC  RECOVERY  PAYMENT   PROVISIONS OF THE AMERICAN RECOVERY
ECONOMIC RECOVERY PAYMENT PROVISIONS OF THE AMERICAN RECOVERY
 ANDREINVESTMENT
AND  REINVESTMENT ACT
                   ACTOF
                       OF2009
                          2009


 Overall
Overall              Weappreciate
                    We   appreciatethetheOIG's
                                          OIG'sexamination
                                                 examinationandandtheir
                                                                   theirconcurrence
                                                                          concurrencewithwithour
                                                                                              our
 Comments
Comments             assertion  that the RRB   complied with  the requirements     of the
                    assertion that the RRB complied with the requirements of the American American
                     Recoveryand
                    Recovery     andReinvestment
                                      ReinvestmentAct
                                                    Actofof2009
                                                            2009with
                                                                  withregard
                                                                        regardtoto$250
                                                                                   $250Economic
                                                                                          Economic
                     Recovery    Payments.
                    Recovery Payments.


 Recommendation
Recommendation       Werecommend
                    We    recommendthatthatthe
                                             theOffice
                                                 OfficeofofPrograms
                                                            Programsremind
                                                                      remindresponsible
                                                                             responsiblesupervisors
                                                                                          supervisors
11                   and   managers  to ensure   that  the design, operation and results of
                    and managers to ensure that the design, operation and results of controlcontrol
                     activities are adequately   documented.
                    activities are adequately documented.


 OPResponse
OP  Response        WeWeagree.
                          agree. WeWecompleted
                                         completedtraining
                                                    trainingononthe
                                                                  theinformation
                                                                       informationtechnology
                                                                                     technologysystems
                                                                                                  systems
                    development life cycle for all Policy and Systems analysts on March 3,3,2010.
                      development    life cycle for all Policy and   Systems     analysts on  March    2010.
                      The  topics included   developing   project   plans,  test  matrices,
                    The topics included developing project plans, test matrices, project    project
                      documentation and
                    documentation       andreviewing
                                             reviewingdaily
                                                         dailysystems.
                                                               systems.We  Wealso
                                                                                alsoreleased
                                                                                     releaseda areminder
                                                                                                 remindertoto
                      the analysts  in  Policy and  Systems    on  March    12,2010
                    the analysts in Policy and Systems on March 12,2010 reminding them reminding  themofof
                      proper  documentation     techniques.    We  believe   this recommendation
                    proper documentation techniques. We believe this recommendation can              canbebe
                      considered   as  implemented.
                    considered as implemented.


cc:            Director of Policy and Systems


                                                       8
